<html>
<title> - THE GOLDMAN ACT TO RETURN ABDUCTED AMERICAN CHILDREN: ASSESSING THE COMPLIANCE REPORT AND REQUIRED ACTION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                   THE GOLDMAN ACT TO RETURN ABDUCTED
                    AMERICAN CHILDREN: ASSESSING THE
                 COMPLIANCE REPORT AND REQUIRED ACTION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2015

                               __________

                           Serial No. 114-88

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
94-943PDF                     WASHINGTON : 2015                      
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS,                    AMI BERA, California
    Tennessee<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Karen Christensen, Deputy Assistant Secretary, Bureau of 
  Consular Affairs, U.S. Department of State.....................     5
Mr. Henry Hand, Director, Office of Children's Issues, Bureau of 
  Consular Affairs, U.S. Department of State.....................     9
Christopher Savoie, Ph.D. (father of abducted child to Japan)....    21
Ms. Edeanna Barbirou (mother of abducted child to Tunisia).......    36
Mr. Ravindra Parmar (father of abducted child to India)..........    44
Mr. Preston Findlay, counsel, Missing Children's Division, 
  National Center for Missing and Exploited Children.............    70

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Karen Christensen: Prepared statement........................     7
Mr. Henry Hand: Prepared statement...............................    10
Christopher Savoie, Ph.D.: Prepared statement....................    28
Ms. Edeanna Barbirou: Prepared statement.........................    39
Mr. Ravindra Parmar: Prepared statement..........................    50
Mr. Preston Findlay: Prepared statement..........................    72

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement of Mariusz Adamski....................    92


                   THE GOLDMAN ACT TO RETURN ABDUCTED
                    AMERICAN CHILDREN: ASSESSING THE
                 COMPLIANCE REPORT AND REQUIRED ACTION

                              ----------                              


                        THURSDAY, JUNE 11, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:03 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon.
    First of all, let me apologize for starting late. We did 
have a series of 14 votes in succession. So, again, to our 
distinguished witnesses I apologize for the lateness in getting 
underway.
    I wanted to especially thank all of you for being here 
today, especially all of the left-behind parents that I see in 
the audience and the thousands more who are here in spirit and 
deeply concerned about their abducted child.
    And I thank you for joining us this afternoon to review the 
U.S. Department of State's first annual report under the Sean 
and David Goldman International Child Abduction Prevention and 
Return Act.
    International parental child abduction rips children from 
their homes and families and whisks them away to a foreign 
land, alienating them from the love and the care of the parent 
and family left behind.
    Child abduction is child abuse and it continues to plague 
families across the United States. Every year an estimated 
1,000 American children are unlawfully removed from their homes 
by one of their parents and taken across international borders. 
Less than half of these children ever come home.
    The problem is so consequential and the State Department's 
previous approach of quiet diplomacy was so inadequate that 
Congress unanimously passed the Goldman Act last year to give 
teeth to requests for return and for access.
    These actions increase in severity and range from official 
protest through diplomatic channels, to extradition, to the 
suspension of development, security, or other foreign 
assistance.
    The Goldman Act is a law calculated to get results, as we 
did in return of Sean Goldman from Brazil in 2008. But a law is 
only as good as its implementation.
    Brokenhearted parents across America waited 4 years for the 
Goldman Act to become law and still await full U.S. Government 
implementation of that law.
    The State Department's first annual report that we are 
reviewing today should be a roadmap for action. The State 
Department must get this report right in order for the law to 
be an effective tool.
    If the report fails to accurately identify problem 
countries, the actions I mentioned above are not triggered. 
Countries should be listed if they have high numbers of cases, 
30 percent or more, that have been pending over a year or if 
they regularly fail to enforce return orders or if they have 
failed to take appropriate steps in even one single abduction 
case pending for more than a year.
    Once these countries are properly identified, the Secretary 
of State then determines which of the aforementioned actions 
the U.S. will apply to the country in order to encourage the 
timely resolution of abduction and access cases.
    While the State Department has a choice of which actions to 
apply and can waive actions for up to 180 days, the State 
Department does not have discretion over whether to report 
accurately to Congress on the country's record or whether the 
country is objectively a non-compliant nation.
    As we have seen in the human trafficking context, and I 
would note parenthetically that I authored both the Trafficking 
Victims Protection Act of 2000 as well as the Goldman Act, 
accurate accounting of a country's record especially in 
comparison with other countries can do wonders to prod much-
needed reforms.
    Accurate reporting is also critical to family court judges 
across the country and parents considering their child's travel 
to a foreign country where abduction or access problems are a 
risk.
    The stakes are high. Misleading or incomplete information 
could mean the loss of another American child to abduction. For 
example, a judge might look at the report filled with zeros in 
the unresolved cases category, erroneously conclude that a 
particular country is not of concern, and give permission to an 
estranged spouse to return to their country with the child for 
a vacation.
    The taking parent then abducts the child and the left-
behind parent then spends her or his life savings and many 
years trying to get their child returned to the United States, 
all of which could have been avoided with accurate reporting on 
the danger.
    I am very concerned that the first annual report contains 
major gaps and even misleading information, especially when it 
comes to countries with which we have the most intractable 
abduction cases.
    For instance, the report indicates that India, which has 
consistently been in the top five destinations for abducted 
American children, had 19 new cases in 2014, 22 resolved cases 
and no unresolved cases.
    However, we know from the National Center for Missing and 
Exploited Children that India has 53 open abduction cases and 
that 51 have been pending for more than 1 year.
    The report also shows zero new cases in Tunisia for the 
last year, three resolved cases and zero unresolved cases. And 
yet Ms. Barbirou will testify today to her more than 3-year 
battle to bring her children home from Tunisia.
    Again, the National Center for Missing and Exploited 
Children's numbers show six ongoing abductions in Tunisia, all 
of which have been pending for more than a year.
    Nowhere is the report's disconnect with reality more clear 
than in its handling of Japan, a country that has never issued 
and enforced a return order for a single one of the hundreds of 
American children abducted there and it was not listed as a 
country showing failings to cooperate in returns.
    In March, nearly the 2 months before the annual report was 
released, you will recall I chaired a hearing of this 
subcommittee featuring Ambassador Susan Jacobs in which it was 
made perfectly clear that Congress expects that Japan will be 
evaluated not just on its handling of new abduction cases after 
it joined the Hague Convention last year but on its work to 
resolve all open abduction cases including the more than 50 
cases I and others have been raising with the State Department 
for at least the last 5 years.
    Among those cases is that of Sergeant Michael Elias, who 
has not seen his two children, Jade and Michael, Jr., since 
2008. Michael served as a Marine who saw combat in Iraq.
    His wife, who worked in the Japanese consulate, used 
documents fraudulently obtained with the apparent complicity of 
Japanese consulate personnel to kidnap their children, then 
aged four and two, in defiance of a court order, telling 
Michael on the phone that there was nothing that he could do 
because as she said, and I quote, ``My country''--that is, 
Japan, ``will protect me.''
    Her country, very worried about its designation in the 
report, sent a high-level delegation in March to meet with 
Ambassador Jacobs and to explain why Japan should be excused 
from being listed as noncompliant, despite the fact that more 
than 1 year after signing the Hague Convention on the Civil 
Aspects of International Child Abduction, Japan has zero 
returns to the United States.
    Just before the report was released 2 weeks late, Takashi 
Okada, Deputy Director General of the Secretariat to the 
Ministry of Foreign Affairs, told the Japanese Diet that he had 
been in consultation with the State Department, and I quote him 
here, ``because we strived to make an explanation to the U.S. 
side, I hope that the report contents will be based on our 
country's efforts.''
    In other words, Japan apparently got a pass from the State 
Department and escaped the list of countries facing action by 
the U.S. for their failure to resolve abduction cases based on 
what Mr. Okada euphemistically refers to as efforts, not 
results.
    Sergeant Michael Elias' country has utterly failed to 
protect him and his children. He has seen zero progress in his 
case over the last year, the seventh year of his heart 
wrenching ordeal.
    And I traveled with his mother--in other words, the child's 
grandparents--to Japan and met that brick wall that he has 
faced now for 7 years in trying to help move that case along. 
And yet the State Department can't bring itself to hold Japan 
accountable by naming Japan as an offender in the annual 
report.
    It is disappointing, it is discouraging, and I believe it 
is disgraceful. The report whitewashes washes Japan's egregious 
record on parental child abduction.
    Adding insult to injury, the report table that was to show 
the unresolved abduction cases in Japan failed to include a 
single one of the more than 50 cases, 36 of which have been 
dragging on for more than 5 years according, again, to the 
National Center for Missing and Exploited Children.
    Instead, the table listed Japan as having a 43 percent 
resolution rate. Japan, again, has never issued and enforced a 
return order for an American child. These young victims--these 
American victims--like their left-behind parents, again, are 
American citizens who need the help of their government.
    The Goldman Act is clear. All requests for a return that 
the State Department submitted to the foreign ministry and that 
maintain unresolved for 12 months later are to be counted 
against Japan, not just 3 months.
    Nearly 100 percent of the abduction cases in Japan remain 
open and the report's conclusion of 43 percent resolution is 
truly indefensible. Moreover, not a single left-behind parent 
pursuing access was allowed in-person contact with their child 
over the last year.
    The Goldman Act has given the State Department new and, I 
would argue, powerful tools to bring Japan and other countries 
to the resolution table.
    The goal is not to disrupt relations but to heal the 
painful rifts caused by international child induction, and I 
remember when I was doing the Trafficking Victims Protection 
Act there were arguments against the bill--it took 3 years to 
become law--that this would hurt our relations with our allies 
if we stood up for women who were being turned into commodities 
and sold like chattel as part of human trafficking schemes.
    I persisted. Those who worked alongside of me persisted. We 
got the law passed, and I think the TVPA has proven itself to 
be a way of saying friends don't let friends commit human 
rights abuses and we need to speak out with clarity, and with 
precision, and with boldness, all based on the facts.
    I do appreciate the State Department's presence here today 
to discuss ways we can improve the report and ensure that it 
fulfills the purposes for which it is intended, namely the 
prevention of abduction and the reunification of thousands of 
American families that have suffered forced separation for far 
too long.
    I would like to yield to my good friend, Mr. Donovan, a 
former prosecutor and a distinguished new Member of the U.S. 
House.
    Mr. Donovan. Thank you, Mr. Chairman. As the chairman said, 
I am the second newest Member of the House. I was elected and 
sworn in 4 weeks ago.
    But in my previous life I was a district attorney and my 
experience with custodial abductions was limited to within our 
own Nation. So I look forward to hearing from the parents and I 
thank you for coming to share your grief with us.
    I am also the father of a newborn 3-week-old daughter so my 
heart goes out to you, and I also look forward to hearing from 
our distinguished panelists today to hear what our Government 
is doing for you.
    Thank you very much.
    Mr. Smith. Thank you very much.
    I would like to now introduce our two distinguished 
panelists, beginning first with Karen Christensen, who has 
served as the Deputy Assistant Secretary of State for Overseas 
Citizens Services since August 2014.
    Most recently, Ms. Christensen was the Minister Counselor 
for Consular Affairs at the U.S. Embassy in Berlin where she 
coordinated consular operations at several posts in Germany.
    Prior to that, she was Consul General in Manila. She has 
also served in Washington within the Bureau of Consular Affairs 
in the visa office and the Office of Executive Director.
    Overseas, she has served as a consular officer served in 
London, Bucharest, Warsaw, and Seoul. Other Washington tours 
include serving as an instructor in the consular training 
division and a career development officer in the Bureau of 
Human Resources.
    Then we will hear from Mr. Henry Hand, who assumed his 
duties as the director of the Office of Children's Issues on 
September 3, 2014.
    His previous assignment was Counsel General at the U.S. 
Embassy in Kiev, Ukraine. Mr. Hand is a career Foreign Service 
Officer who joined the department in 1989. He was promoted to 
the Senior Foreign Service in 2013.
    His previous postings include the American Institute in 
Taiwan, Consulate General Shanghai, Embassy Tallinn, and 
Embassy Nicosia.
    He has also served in the Bureau of Consular Affairs as a 
country desk officer on central African affairs.
    The floor is yours, Ms. Christensen.

STATEMENT OF MS. KAREN CHRISTENSEN, DEPUTY ASSISTANT SECRETARY, 
      BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Christensen. Chairman Smith and distinguished members 
of the subcommittee, thank you for this opportunity to discuss 
international parental child abduction and to review 
implementation of the Sean and David Goldman International 
Child Abduction Prevention and Return Act, including the 
Department of State's first annual report under this new law.
    The Department values your continuing interest and support 
of our efforts to prevent international parental child 
abduction, to facilitate the return of children to their homes 
and to strengthen and expand the Hague Abduction Convention to 
include more partner countries.
    Our mission is to assist children and families involved in 
international parental child abduction and to prevent its 
occurrence.
    In my career I have worked with many families affected by 
international child abduction and I have seen firsthand the 
pain it causes. This new law already is encouraging more 
countries to consider becoming party to the Hague Convention or 
to improve their performance under the convention if they are 
already a party.
    The U.S. Interagency Working Group, for example, on 
prevention mandated by the law has already met twice, hosted by 
Special Advisor for Children's Issues, Ambassador Susan Jacobs, 
and it has already resulted in enhanced coordination in 
preventing abductions.
    We devoted significant effort to analyzing this new law, to 
adapting our policies and procedures to implement it and to 
publish the first annual report. We fully recognize that this 
first report will not meet all expectations and we welcome 
feedback from you, from other Members of Congress, from parents 
who are seeking the return of their children and from the 
public on how we can improve future iterations of this report.
    As the law requires, 90 days following the annual report 
the Department will submit to Congress a report on actions 
taken in response to countries demonstrating patterns of 
noncompliance.
    Mr. Chairman, distinguished members of the subcommittee, we 
are committed to using every tool we have available to prevent 
and resolve international parental child abductions. We need 
and we appreciate your continuing support including through 
your feedback on our work and on our reports to you.
    Thank you, and I look forward to your questions later. So I 
will turn it over to Henry Hand.
    [The prepared statement of Ms. Christensen follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              


  STATEMENT OF MR. HENRY HAND, DIRECTOR, OFFICE OF CHILDREN'S 
  ISSUES, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Hand. Congressman Smith, distinguished members of the 
subcommittee, thank you for the opportunity to appear before 
the subcommittee regarding our work in the Office of Children's 
Issues to prevent and resolve international parental child 
abductions and to implement the 1980 Hague Convention of the 
Civil Aspects of International Child Abduction, the 
International Child Abduction Remedies Act, and the Sean and 
David Goldman International Child Abduction Prevention and 
Recovery Act.
    I welcome the chance to provide further detail and answer 
your questions about the Department of State's first annual 
report under the new law.
    Our office worked hard since the new law was enacted in 
August to analyze and translate its provisions into concrete 
actions such as collecting 40 new data fields for every case. 
Our focus was on ensuring this first report contained all the 
information required by the law.
    The information in the 2014 report naturally is different 
than the previous annual compliance reports on international 
parental child abduction, which were drafted under previous 
legislation.
    The 2014 report represents a first in the initial effort 
that we understand does not meet all of your or others' 
expectations.
    We compiled it under a compressed timeline with data 
gathered in the months after the law came into effect. We 
worked diligently simultaneously to make sure that as we 
implemented the law we maintained the office's ongoing work in 
support of families affected by international child abduction.
    Mr. Chairman, distinguished members of the subcommittee, we 
are committed to fully implementing the law and making the most 
effective tool we can in service our shared goals of preventing 
international parental child abduction and bringing abducted 
children home.
    We very much appreciate the feedback we already have 
received and seek your comments and questions to inform the 
work we are doing.
    Thank you, and we welcome your questions.
    [The prepared statement of Mr. Hand follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
                              ----------                              

    Mr. Smith. Mr. Hand, thank you very much. Ms. Christensen, 
thank you very much.
    Could you, Ms. Christensen, tell us in what ways has the 
State Department made Japan's Ministry of Foreign Affairs aware 
of the 50-plus abduction cases predating Japan's ratification 
of the Hague Convention?
    And do we give their Foreign Ministry or their, you know, 
competent entity there a list of abduction cases? Is that how 
we do it?
    Mr. Hand. Sir--Mr. Chairman, we have discussed--we have 
raised specific cases with the Japanese Foreign Ministry. Right 
now, the Japanese Foreign Ministry there is the Central 
Authority which works on Hague cases.
    There are other parts of the Foreign Ministry which have 
the lead on pre-Hague cases. We have raised the issue of pre-
Hague cases with both sides of the Japanese Foreign Ministry. 
We have also raised it at senior levels of the Japanese 
Government and continue to do so.
    Mr. Smith. Since that is the case it is, perhaps, an 
oversight, but I think it may be more than that, the Goldman 
Act makes it very clear that there must be accounting of all 
unresolved cases, and I will read you the pertinent part of it. 
Title I, Department of State Actions ``Each annual report shall 
include a list of all countries in which there were 1 or more 
abduction cases, during the preceding calendar year, relating 
to a child whose habitual residence in the United States . . 
.''--then it goes through specific more detailed information.
    But the idea is that just one case in the whole preceding 
calendar year. And yet, in reading the report on page 17 it 
says Japan, abduction cases, unresolved cases zero, and yet 
elsewhere in the report it does mention the 50.
    But the way of evading putting Japan on the list--and there 
are 22 countries, as you know, since you compiled it--who are 
on the list who have shown a pattern of noncompliance is 
somehow to just exclude these 50-plus cases that information 
has been given over to the Japanese Government, as just 
indicated, and I know that because I have been talking to our 
people both in Tokyo as well as at the State Department here.
    They do make representation on behalf of individuals. And 
yet it is baffling beyond words. Unresolved cases, zero. How 
did that happen?
    Mr. Hand. Sir, one of the things that we have been working 
very hard on in the past several months since the law was 
enacted is in devising the report with--that calls for new 
data, data that we were not using before.
    The legislation also contains some new definitions and one 
of the issues that we have encountered is that the definition 
and the definitions in the law, an unresolved abduction case is 
one that remains unresolved for more than 12 months after the 
date in which the completed application for return of the child 
is submitted to the judicial or administrative authorities.
    What, in our extensive review, we found is that it was 
determined that we cannot include many non-Hague cases where 
there was no application for return. There was an application 
for custody or application for access and so on.
    Again, though, let me reiterate we look forward to working 
with you and with others to make this report as comprehensive, 
as understandable, and as effective a tool as we can because we 
share your desire that this report be something that members of 
the public, Members of Congress, judges and others can use as 
an effective reference and also as an effective tool to press 
other countries.
    Mr. Smith. I deeply appreciate that we share that concern 
and I do believe we do. Your intent is our intent, both Mr. 
Donovan and I and many others who are concerned about this.
    But the definition of ``unresolved abduction case''--and I 
will read it again and I think it needs to be clearly put on 
the record--

        ``means an abduction case that remains unresolved for a 
        period that exceeds 12 months after the date on which 
        the completed application for return of the child is 
        submitted for determination to the judicial or 
        administrative authority, as applicable, in the country 
        in which the child is located.''

    We have made representation to the Japanese Government on 
behalf of these case files, one after the other after the 
other, to return the child.
    I mean, of course access is usually a part of it, but it is 
to return the child because custody, we all know, is something 
that we hope is going to be done at the place of habitual 
residence.
    I don't think a definition could be more clear and, you 
know, when I juxtapose that with something that Secretary 
Jacobs said, in 2013 at a hearing that I chaired on this issue, 
I become very concerned.
    She said, ``I think, for cases that are not covered by the 
Convention, that we do need to reach an agreement with Japan,'' 
and you might want to comment whether we are close to reaching 
a bilateral agreement with them.
    But then she said--and this is very disturbing--

        ``I think that threatening countries is often an 
        unsuccessful way to get them to cooperate with us, 
        because most of the relationships that we have are very 
        complex and involve many issues.''

    Then she said:

        ``. . . I don't think we are going to sanction Japan, 
        or threaten them with sanctions, because I think that 
        would be detrimental to our bilateral relationship.''

    Now, I believe passionately in the bilateral relationship 
with Japan--security and economically. But, again, we have a 
situation here where was the fix already in back in 2013--that 
when it came to, if we ever passed the Goldman Act, that you 
would have a table where it says there are no unresolved 
abduction cases in Japan.
    Again, I think this is theater of the absurd. There are 
more than 50 of them. Some of the left-behind parents are 
sitting in this room saying zero, how could that be zero?
    The definition is as airtight as I think lawmakers can 
write. I don't see how you felt you could not include that, and 
then even in your footnotes you even acknowledge the 50 cases 
later on in the narrative.
    I think you have done a grave disservice to all of those 
American children who have been abducted and to their left-
behind parents. I say that with total sincerity.
    Ms. Christensen. I just want to say I don't think the fix 
was in. I don't think there was an intention to not cite Japan. 
I think, as Henry has explained, when we read through a lot of 
internal discussion this definition here, it was the feeling 
that those cases did not meet this definition as written in 
law.
    But it was precisely because of our concern for those 50 
cases that we did discuss them at length in the rest of the 
body of the report and they continue to remain of great concern 
to us.
    Ambassador Susan Jacobs will be going very soon to Japan 
and these cases are going to be a subject of that discussion, 
and we continue to attempt to resolve and establish some 
protocols with Japan for the resolution of those cases.
    Those 50 cases are very definitely at the forefront of our 
thinking. We also understand that among those 50 cases about 17 
of them have actually filed now--filed cases--Hague cases for 
access and are working through those cases.
    Mr. Smith. Well, again, these are desperate loving parents 
who have been frustrated to nausea with the lack of 
responsiveness by us, the U.S. Government, and especially by 
the Japanese Government.
    And just let me make a point. When you talk about 
application, we made it very clear that the term application 
means the case of a non-Convention country--the formal request 
by the Central Authority of the United States, you, to the 
Central Authority of such a country and that could be their 
foreign ministry, requesting the return of an abducted child or 
for rights of contact with an abducted child.
    I presume on each of those outstanding cases, which is now 
in excess of 50 and because some have aged out and gave up, 
perhaps they are not even counted anymore, surely you have made 
an application to Japan on each and every one of those.
    When I was at our Tokyo Embassy I asked those kinds of 
questions--are we making a representation? What do you do with 
the file? You know, you have this file. Of course you convey it 
to the Japanese in a hopefully a persuasive manner. That 
happened, right?
    Mr. Hand. In the report, as you know, Japan acceded to the 
Hague Convention and the statistics in the report. We counted 
the applications for return as applications for return filed 
under the Hague.
    We will get back to you with a more detailed answer on the 
pre-Hague cases and exactly what was done. But let me say that 
we have--this is very much a focus of our office. It is very 
much a focus of our Embassy in Tokyo.
    I have been in meetings. Ambassador Jacobs, other senior 
officials in the department have been in meetings discussing 
this with the regional bureau, with senior officials at our 
Embassy in Tokyo and others.
    So there was no attempt on our part to evade this issue or 
somehow push it under the table. It is an issue that is very 
much a focus and it is one that we care very deeply about.
    Mr. Smith. I do look forward to that explanation and we 
hope, if she is amenable to it, to ask Ambassador Jacobs if she 
would come back in July because, again, we are in the 90-day 
review period and if this could be amended--this report--to get 
it right because I believe, based on the clear language of the 
Goldman Act, Japan should be the 23rd nation on the pattern of 
noncompliance.
    It is the most self-evident of all the countries, and there 
are some countries on here and I am glad you have Brazil, 
India, and other countries. I do note that in your unresolved 
cases number on India, amazingly, even though the National 
Center for Missing and Exploited Children says there are over 
50 cases there as well and it is zero there, too.
    I am working with several cases there myself including one, 
of Bindu Phillips, which she has testified twice before my 
subcommittee. She has been to the State Department. She is 
doing everything humanly possible and that is an unresolved 
case now for multiple years and that is listed as zero as well.
    So we do need and maybe you can amend this to get that 
right because I do believe it is an egregious flaw. Yes, you 
wanted to respond, sir.
    Mr. Hand. Going to say, sir, that again, we worked with the 
definitions as our experts determined in putting together the 
report. Because a case is not in the report does not mean that 
we are not working with that parent or that case is not a 
concern. But this is--again, this is something that we are very 
concerned with in our office is, again, we want the report to 
reflect the work that our office is doing.
    We want the report to be an effective, useful tool. But we 
also want it to comply with the terms of the legislation.
    Mr. Smith. But, again, as I said in my opening getting the 
Trafficking Victims Protection Act--a whole another issue but 
it is certainly a serious human rights abuse issue--we have 
always argued just get it right in the report and then part 
two, the sanctions regime, if there are any.
    There is a very generous waiver if the President thinks 
that it is in the best interests of the issue itself, the 
cause, as well as other interests like national security where 
he is not obliged to impose sanctions. But getting the report 
right is all important.
    As I said before, judges will read this or could read this 
and say hmm, zero cases--unresolved cases in Japan--no problem 
there, and send somebody off and that kid or children then get 
abducted by an offending parent. Mr. Donovan.
    Mr. Donovan. Thank you, Chairman. For either of our 
panelists, how many children and families are we talking about?
    Mr. Hand. As of June 1st our office has a total of 919 
outgoing, meaning children taken from the United States, 
abduction and access cases.
    The cases may involve more than one child so the total is 
about 1,285 children. As Chairman Smith has said and others 
have noted, we rely largely on cases that are reported to us.
    So we--there are cases that are out there that are not 
reported to the Central Authority that may not be in this 
figure.
    Mr. Donovan. Does each family have a liaison at State that 
informs them of the progress of their case? Do they have to 
inquire at a general number and try to find somebody to help 
them or do we have somebody that is working particularly--with 
each particular family?
    Mr. Hand. The Office of Children's Issues is divided up by 
the region and each region has country officers.
    If you are familiar with how regional bureaus in the State 
Department work where there is a country desk officer, we have 
a similar set-up in the Office of Children's Issues.
    So we have country officers who are experts and work with 
families in particular countries and particular regions. So we 
have people, for example, who work with families who are 
affected by abduction cases involving Brazil or China or Russia 
or Japan or other countries.
    Mr. Donovan. And as the chairman pointed out, one 
particular country that we feel is not complying. Are there 
countries that are very complying that could be models for 
others?
    Mr. Hand. There are countries that we have a very good 
working relationship with. We are engaged in--like other 
aspects of our relations with other countries, some countries, 
for example, we might have a very good working relationship 
with the Central Authority but we might have huge problems with 
judicial authorities or law enforcement authorities not 
complying or other elements of that government.
    In other cases, there is also issues with just volume. A 
country we work very, very closely with--Mexico--which, because 
of its proximity to the United States, we they have far more 
children being abducted to Mexico and from Mexico to the United 
States than any other country--that relationship is far 
different than a relationship with a country where maybe there 
is one or two abductions.
    But it really varies. Some countries everything works well. 
Some countries, we are struggling. Some countries we are trying 
to work with elements within that government to bring along 
other elements of the judiciary or law enforcement to achieve 
returns of children.
    Mr. Donovan. And my final question--is one of the stumbling 
blocks that some countries don't recognize the judicial 
determination of parental rights in our country, therefore 
don't recognize it in their country as a reason to assist in 
getting this parent back with their child?
    Mr. Hand. At the Department of State we are big advocates 
of the Hague Convention because that is a mechanism whereby 
countries can--I am simplifying, but effectively recognize 
judicial decisions made in other countries to get children back 
to their habitual residence.
    There are countries where a left-behind parent does have to 
file a custody application for a court case in the judiciary in 
that country. Legal systems, as you know, vary very much from 
country to country.
    Mr. Donovan. Thank you very much, and before our next panel 
comes up I apologize. I have to go somewhere else. So if I 
leave during the middle of your testimony please don't be 
offended. Thank you.
    Mr. Smith. Thank you very much, Mr. Donovan.
    Let me ask you just a few final questions. When you raise 
with senior members of the Japanese Government could you to 
tell us how senior that is--who they are?
    Mr. Hand. We have raised it with senior members of the 
Foreign Ministry. We are actively discussing with our Embassy 
in Tokyo other ways that we could raise this issue.
    The instances I am most familiar with are senior members of 
the Japanese Foreign Ministry.
    Mr. Smith. Okay, but no names? Maybe you can get back to us 
just--do you have an idea who your interlocutors are?
    [The information referred to follows:]
Written Response Received from Mr. Henry Hand to Question Asked During 
           the Hearing by the Honorable Christopher H. Smith
    The Department of State remains committed to raising child 
abduction cases with senior level Japanese officials at every 
opportunity. Specifically, U.S. Ambassador to Japan Caroline Kennedy 
has discussed the issue of international parental child abduction, 
Japan's compliance with the Hague Convention, and the concerns about 
pre-Hague cases in meetings with the Vice-Minister for Foreign Affairs 
and the Chief Cabinet Secretary. Special Advisor for Children's Issues, 
Ambassador Susan Jacobs, and senior U.S. Embassy officials have met 
with the Director General of the First North American Division, the 
Deputy Director General of the Consular Affairs Division, and the 
Political Minister of the Japanese Embassy to the United States. On a 
routine basis, the Department of State's Office of Children's Issues 
and U.S. Embassy Tokyo staff meet with officers of Japan's Ministry of 
Foreign Affairs' First North America Division and the Hague Convention 
Division.

    Mr. Smith. Okay. If a country has allowed a case to go on 
for longer than 6 weeks but is otherwise complying with the 
requirements of the treaty, do you consider that a case 
resolved?
    Mr. Hand. I am sorry, sir. Could you repeat the question, 
Mr. Chairman?
    Mr. Smith. If a country has allowed a case to go on for 6 
weeks, which is, of course, what the Hague prescribes, but is 
otherwise complying with the requirements of the treaty do you 
consider that case resolved?
    Mr. Hand. One of the things that we are working with is our 
definition of resolved and unresolved cases and we have cases 
that kind of fall into the middle.
    The annual report defines a resolved case per the 
definition of the law. At the same time, our Office of 
Children's Issues might close a case for other administrative 
reasons--for example, rejected by the foreign Central 
Authority.
    That case would still be unresolved in the annual report. 
We do have cases that have not been resolved, meaning they 
haven't come to some sort of conclusion but they don't meet the 
definition of unresolved, meaning they have been with the 
foreign judicial or administrative authorities for more than 12 
months.
    This is another area which we look forward to working with 
you and with others to make the report more clear and more 
useful.
    Mr. Smith. Could you tell us how many abduction cases OCI 
currently has open inclusive of all years? How many open cases 
do you have?
    Mr. Hand. Yes, sir. The figure I have is currently as of--
this is as of June 1 so I apologize. I don't have as of June 
11. The office has a total of 919 outgoing abduction and access 
cases that involve 1,285 children.
    As, sir, you have said and we have said before, we 
understand that there are cases that are not reported to us. 
But that is our open caseload as of June 1.
    Mr. Smith. And in talking about India I have gotten 
letters. I actually asked Secretary Kerry when he testified 
earlier this year about whether or not he raised the case with 
Modi and whether or not President Obama raised abduction--
parental child abduction--and he just said that we continuously 
raise all international parental child abduction cases in 
appropriate meetings, which is now standard.
    It is even--it is included in emails that go back and forth 
from your office. But just to drill down on that, again, I have 
some individual cases in my own State that have gone on for 
years and yet the unresolved caseload for India, like Japan, is 
zero.
    I mean, that is like a body blow to a long-suffering left-
behind parent in this case. Bindu is a mother who had her kids 
taken away from her. She's tried everything and is counting on 
the U.S. Government to be the one entity that can make this 
come to fruition and get her children back.
    Mr. Hand. Sir, I very much--I mean, I understand the 
concern. And again, for this report we use the definitions that 
were in the legislation.
    That doesn't mean we don't have open cases in the Office of 
Children's Issues and the case you cited and others are very 
much a concern of our office.
    We are pressing the Indian Government and other governments 
to resolve them. And, again, one of the things that we look 
forward to working with you and with others is how to make this 
report a better reflection of what we are doing and the numbers 
of people and so on that we are working with and the concerns 
of each of them.
    Mr. Smith. We look forward to doing that. Again, and I read 
it and I won't read it again, but the unresolved abduction case 
definition in Public Law 113-150, the Goldman Act, is as clear-
cut as I could possibly imagine it.
    I mean, we worked hard to make sure that there was clarity, 
predictability. Nobody would be confused, no ambiguity.
    And, again, it says unresolved means an abduction case that 
remains unresolved for a period that exceeds 12 months after 
the date on which a completed application for return to the 
child is submitted for determination in judicial or 
administrative authority.
    And, again, we are tendering these requests to the Foreign 
Ministry and to whoever else in Japan and the same goes for 
India, and yet we have zeroes there.
    So, please, I ask respectfully if you could reopen this 
issue with regards to the report immediately and resolve that 
because it deals a real blow, I think, to the accuracy of the 
report.
    Let us just say it exactly the way it is, then work out 
what our response ought to be that is prudent and hopefully 
most efficacious to get the result we want, which is get the 
children back to their left-behind parents.
    So if you could consider that.
    Mr. Hand. We will take that back, sir.
    Ms. Christensen. We will take that back, and as Henry said 
we do look forward to having an opportunity to talk in greater 
detail, a more detailed briefing about exactly where these 
numbers came from and what definitions we were using.
    Our goal here was really to try to comply with what was 
required in the report and since this was a new way of looking 
at the information, it was new definitions, we weren't sure 
when we started down this road exactly what we were going to 
end up with and where that would take us.
    And it really is our goal to have a report that really is 
responsive to the interests and the concerns of everybody who 
is involved.
    And if I just might say one thing also about the act, the 
act is much more than just the report and we really believe 
that a lot of the measures that are in here involving 
prevention are really going to have a significant impact on 
this problem, and so we are grateful for those measures and we 
look forward to developing those further.
    Mr. Smith. All right. I appreciate that. Just very briefly, 
I know that you report that you had a prevention interagency 
meeting in October and that's from Title III, of course, of the 
law.
    Have you had any since?
    Ms. Christensen. Yes, we did. We had have another one and I 
know that DOD was also involved in that one and that was in 
April, I believe, and at those meetings what is really evident 
is that that sort of an interagency meeting and interagency 
task force does surface ways that we can remove barriers to 
communications within the U.S. Government, which I think will 
provide a lot of benefit for this and we will see a lot of good 
results from that.
    Mr. Smith. And again, if you could shed--this is my final 
question--any insight as to Ambassador Jacobs' comments on May 
9, 2013 when she said we do need to reach an agreement with 
Japan--you know, a bilateral agreement or an MOU, which I have 
been arguing for for about 7 years.
    Are we close to it? Is there an active discussion going on 
with our friends in Japan?
    Mr. Hand. There is a very active discussion. This is 
something that, as director of the office, I have spent a fair 
amount of time discussing both with our Embassy in Tokyo, with 
others.
    It is something that we are extremely anxious to achieve. 
We are anxious to see some progress and we will keep you 
updated, sir.
    Mr. Smith. Okay. And I would note parenthetically that I do 
believe that one part of the prevention scheme, and we have 
learned this from the Trafficking in Persons Report, is just 
getting the report accurate and it needs to be gotten accurate.
    So I want to thank you, and I appreciate you coming. And 
please get back to us if Ambassador Jacobs might be available 
in July before the 90-day period has elapsed.
    Mr. Hand. Thank you, sir.
    Mr. Smith. Thank you.
    I would like to now introduce our second panel beginning 
with Ravindra Parmar is a New Jersey resident and a left-behind 
father of a young man who was abducted in India in March 2012 
by his mother when Reyansh, who is the son, was 3 years old.
    He is a CPA, works for a big four accounting firm, 
emigrated from India in 1994 at the age of 16 and has lived in 
the U.S. for almost 21 years.
    He and Dimple, his wife, are both naturalized U.S. citizens 
and Reyansh was born in New Jersey where the family lived 
together from 2004 to 2012, and then that is when Dimple took 
Reyansh on what was supposed to be a 5-week vacation to India.
    He has been fighting for his son's return for 3 years and 
co-founded the Bring Our Kids Home which advocates for the 
return of all American children abducted to India.
    We will then hear from Edeanna Barbirou, who is the mother 
of Eslam and Zainab, age nine and six respectively, who were 
illegally abducted by their father to the Republic of Tunisia 
in November 2011.
    Ms. Barbirou has successfully returned home to the U.S. 
with her daughter, Zainab, and continues to seek the return of 
her now abducted son, Eslam, from Tunisia. Following her 
children's abduction, she initiated an organization to bring 
awareness to her family's case.
    Today, Return Us Home, or RUSH, has a mission to educate 
the public and public servants about the international child 
abduction issue and develop abduction prevention strategies.
    RUSH advances this mission through its membership with the 
iStand Parent Network, a coalition of parents, organizations 
and stakeholders united to prevent and remedy international 
parental child abduction.
    We will then hear from Dr. Christopher Savoie, a member of 
the American Bar Association's Section of Science and 
Technology Law's Big Data Committee. He is a licensed attorney, 
technology executive, and data scientist.
    He is currently senior manager of enterprise architecture 
at Nissan where he oversees the company's global efforts in big 
data analytics. Dr. Savoie started his technology career in 
Japan where he founded Atmark, one of Japan's first Internet 
consulting firms, and then became founder and CEO of Dejima, 
where he invented and commercialized the natural language 
understanding technology behind Apple's Siri.
    Dr. Savoie also founded Gene Networks International, or 
GNI, in Japan, a publically traded pharmaceutical company that 
utilized his inventions for novel pharmaceuticals. He will 
speak about his child being abducted, of course, in just a 
moment.
    And then we will hear from Mr. Preston Findlay, who is a 
legal counsel for the Missing Children Division of the National 
Center for Missing and Exploited Children.
    In his role he provides legal technical assistance and 
training to law enforcement attorneys, family members, and the 
public regarding international and domestic child abductions 
including children who have been taken by a parent or a family 
member.
    Mr. Findlay edited and co-authored the National Center's 
Litigation Guide for attorneys handling cases under the Hague 
Child Abduction Convention as well as an investigation and 
program management guide for law enforcement agencies 
responding to cases of missing and abducted children.
    Mr. Findlay is a former prosecutor and government attorney 
admitted to practice law in Texas and Virginia.
    So Dr. Savoie is going to be going first.

  STATEMENT OF CHRISTOPHER SAVOIE, PH.D. (FATHER OF ABDUCTED 
                        CHILD TO JAPAN)

    Mr. Savoie. Thank you, Mr. Chairman, for the opportunity to 
speak with you today about the ongoing obstacles that victim 
parents face in their struggle to be reunited with their 
kidnapped children, and thank you for this great honor.
    My name is Christopher Savoie. I am by trade a data 
scientist, technology executive, and licensed attorney and 
cofounder of the nonprofit organization Bring Abducted Children 
Home.
    But more importantly, I am a father, a father who has been 
unable to meet with his children in nearly six unimaginably 
painful and heartbreaking years due to Japan's complicity in 
the kidnapping of our children.
    My nightmare began back in August 2009 when my ex-wife, 
Noriko Esaki Savoie, told me that she wanted to take the kids 
back-to-school shopping. Little did I know that on that day 
that in a few short hours my children would be on an airplane, 
in the air, and on their way to Japan, a known haven for 
parental child abduction.
    It would be slightly less painful perhaps if my ex-wife 
facilitated phone calls between me and my children. But like 
the majority of parental abductors, my ex-wife and her parents 
do not grant me any access to my children whatsoever.
    My phone calls to them are ignored, my packages are refused 
and my letters are sent back to me. The State Department 
informed me that they are working on my case. We had meetings, 
we had phone calls, and we had even more meetings, town hall 
meetings in which I met scores of other parents in my same 
situation.
    Their children were stolen to Japan, too. I was assured 
that the State Department was ``raising the issue'' of my case 
and other cases in which children were stolen to Japan in 
violation of U.S. law.
    Now, just briefly I would like to share with you some 
research. The National Center for Missing and Exploited 
Children, NCMEC, who we will hear from later, says that 
parental abduction is very damaging and extremely traumatic to 
the child.
    The Office of Juvenile Justice and Delinquency Prevention 
says that parental abduction profoundly affects the victim 
children and has long-lasting consequences for their emotional 
health.
    The FBI says that parental abductions are often borne of 
one parent's selfish desire to retaliate against the other 
parent and the American Bar Association Center on Children and 
the Law says that parental abduction is child abuse and that 
the effects of such trauma are deep and long-lasting.
    But in my first meeting with a State Department official, 
do you know what she said? Michelle Bond, currently the Acting 
Assistant Secretary for Consular Affairs, said to me, ``At 
least they are with their mommy.'' At least they are with their 
mommy.
    You would think that someone in such a high-level position 
would have known about NCMEC's studies or the Justice 
Department's or the FBI's or the ABA's or perhaps, most 
glaringly, that the U.S. Congress, in passing the International 
Parental Kidnapping Crimes Act, stated that parental child 
abduction is in fact a felony crime.
    So this was my first introduction into the world of OCI, 
flabbergasted by the other parents' stories of the State 
Department's passive aggressive and often demeaning treatment 
of left-behind parents, its ongoing obfuscation of the 
substance of their alleged efforts to bring our children home 
as well as the State Department's habit of fudging the numbers 
to protect a foreign country's reputation in the eyes of 
Congress.
    I was actively communicating with the OCI from the 
beginning in 2009, 2010, 2011. After a while, it became more 
and more noticeable that the OCI staff lacked any outrage 
whatsoever at Japan's complicity in this human rights violation 
that is their sole custody regime.
    I asked myself whose side are they really on anyway. Their 
language always seemed slippery to me. Finally, in 2011, when 
my children had been abducted for over 1\1/2\ years, I asked my 
caseworker, Courtney Houk, has the State Department ever 
formally demanded the return of my children.
    On March 9, 2011, Courtney Houk responded by email and told 
me, and I quote, ``The State Department has not formally 
demanded the return of any abducted children.'' Let me say that 
again. ``The State Department has not formally demanded the 
return of any abducted children.''
    If they are not demanding the return of any abducted 
children, then what are they doing keeping abduction issues on 
their agenda?
    I never received a satisfactory answer as to why the State 
Department has not asked for the return of any abducted 
children.
    Well, here I am now, a few years older and a few years 
wiser, and I am holding a copy of the State Department's report 
on compliance with the Goldman Act that is the subject of 
today's hearing, and this report is full of numbers--42 pages 
of numbers.
    But these are not just ordinary numbers, Mr. Chairman. Each 
of these numbers represents one or more actual American citizen 
children who has been kidnapped away from an American parent.
    Each one of these numbers is a real significant human 
rights tragedy that is causing very real tears, and yet I 
believe that this report has mischaracterized and under 
represented the problem, again, to protect the reputation of 
our allies in the eyes of Congress rather than being 
forthright.
    The truth is that when it comes to Japan in particular and 
its ability to abide by the Hague treaty we have a major 
problem. Japan's own government and legal scholars fully 
understand and admit that they cannot be compliant.
    At a recent hearing in front of the Japanese Diet, the 
Parliament, Japanese lawmakers expressed explicit concern about 
the Goldman Act and mentioned you, Mr. Chairman, by name, and I 
quote, ``because Japan only has sole parental rights, not 
shared parental rights like most other countries.''
    Please allow me to explain this so you and others may 
understand what is going on here and why, without a change in 
Japanese law, Japan can never be in true compliance with the 
letter or the spirit of the Hague Convention.
    You see, in Japan every divorce results in the total loss 
of all parental rights for one of the parents. That is right. 
Under Japanese law, after a divorce, even a completely amicable 
divorce, the parents or a court must decide which parent will 
maintain parental rights. Not custody--parental rights.
    The result of this rule is that one parent must by law have 
his or her parental rights terminated, becoming legally a total 
stranger, a non-parent to the child. The non-parent may not 
have any decision making over the child anymore, never mind 
guaranteed visitation, decisions over medical care, access to a 
child in a hospital, or access to school records--none of that.
    This is also why the State Department and the Japanese 
Government, both of which would like to maintain smooth 
bilateral relations, have had to contort the numbers in this 
report and distort the truth in order to hide this awful fact 
about Japanese law and cultural values.
    By definition, there is only one parent after a divorce in 
Japan. So as far as Hague-mandated access and visitation is 
concerned, Japan has never developed any enforcement mechanisms 
because in its own country they would never create a system to 
enforce visitation with someone who is legally a stranger.
    So when the State Department suggests that Japan is 
magically compliant with the Hague Convention, according to 
their recent report, we must ask them how is it possible when 
the Japanese Government itself admits in open parliamentary 
session that divorced parents have no parental rights at all.
    How can Japan be compliant with this law without any 
possible parental rights or visitation rights or visitation 
enforcement, not only for these American parents but for their 
own Japanese citizen parents following a divorce?
    The answer is simple. Japan cannot be compliant legally, 
culturally, or practically. But yet the State Department 
misrepresents the numbers in order to claim that Japan is 
compliant when they know that this is not true.
    In fact, last week, in order to shine a spotlight on the 
underlying issue of sole parental rights in Japan, my client, 
U.S. Navy Captain Paul Toland, a sole surviving parent to his 
daughter, Erika Toland, filed a lawsuit in Japan challenging 
the very basis of this legal reality.
    He asked for what in U.S. courts would be considered a 
natural human right, that the sole surviving parent after a 
divorce and death of a spouse be granted physical custody of 
his child.
    Right now, the child is with a grandparent who refuses 
Captain Toland any and all access to his daughter. The premise 
of the lawsuit--that a biological parent has a fundamental 
right to his or her own child--has made national headlines in 
Japan. Why?
    Because as several Japanese experts state in the Japanese 
press, and I quote, ``This case brings to light the stark 
cultural differences between Japanese and U.S. culture and laws 
concerning fundamental rights.'' Again, Japan simply does not 
recognize that parents like me, like Paul Toland, like so many 
others, have any rights whatsoever to parent our children.
    Now, in addition to the abduction cases, there are cases 
the State Department refers to euphemistically as access cases.
    Simply put, access cases are cases like mine which, because 
our kids were abducted before the Hague Convention, Japan 
claims it cannot be forced to return them under the Hague 
Convention.
    But even in these cases the Hague Convention under Article 
21 requires that the Central Authority remove all obstacles to 
visitation with our children--all obstacles.
    Yet, in an e-mail dated June 3, 2015, my caseworker, 
Elizabeth Kuhse, told my attorney that the JCA claims it is not 
their responsibility to facilitate a visitation agreement about 
my access to my children despite the fact that my ex-wife only 
wants to communicate through the JCA.
    So my case, thanks to the State Department's unwillingness 
or inability to advocate on my behalf, remains in a catch-22. 
The entity responsible for facilitating access and removing all 
obstacles to Hague-mandated access is the only entity through 
which my ex-wife will communicate and is claiming that in fact 
it is not responsible for Hague-mandated access.
    And, in fact, on a recorded interview with Australia 
Broadcasting Corporation, the director of the Hague Convention 
division at the Japanese ministry of foreign affairs, Kaoru 
Magosaki, admits verbatim, and I quote, ``that Japan cannot 
enforce any sort of access.''
    In fact, the State Department in the report has carved out 
what appears to be a novel exception to the Goldman Act. Not 
just cases awaiting submission but already submitted cases are 
excluded for the purposes of compliance.
    In other words, once a case is submitted to a court in 
Japan and forced into delayed mediation or litigation, the 
State Department is taking the position that the Japanese 
Central Authority is off the hook with these cases simply 
because the courts and not the JCA itself are responsible for 
guaranteeing timely access to the children.
    So once a case is submitted, the State Department and JCA 
claim they can wash their hands of all responsibility to 
provide access to the children in a timely manner.
    So even if a court takes 10 years to provide 1 hour of 
access to a child, a country can be considered compliant for 
purposes of the Goldman Act under an exception that is nowhere 
to be found in the language of the Goldman Act.
    What is completely unforgivable, Mr. Chairman, in my 
opinion, is that this numerical shell game is absolutely to the 
detriment of American citizen children who are crime victims.
    Note that there are voices of reform in Japan, including 
high-level officials who want to see a change in Japan's 
domestic laws. We need to support them in condemning the 
current system in Japan and not undermine their reform efforts 
by sugarcoating reality.
    These are people who really want to see Japanese laws and 
practices change for the better, people like Justice Minister 
Yoko Kamikawa who, in direct response to Captain Toland's case, 
was quoted in the Sannkei newspaper saying that children 
custody should be based on the child's best interest and not 
just on who has been raising the child following an abduction. 
People like Japanese Interior Minister Eda who stated in open 
Diet session that parental abduction should be regarded as 
child abuse, that abductors are not fit to be child custodians 
and that those who deny visitation with the other parent should 
be divested of custody. People like Chief Justice Terada of the 
Japanese Supreme Court who stated publicly there is an 
increasing scrutiny of these cases due to the signing of the 
Hague and that it is the responsibility of Japanese courts to 
regain the trust of the people by studying the real state of 
affairs of Japan and international trends in custody laws.
    These reformers in Japan understand just how far behind 
international trends Japan truly is. So why is the State 
Department still covering up for Japan? At the end of the day, 
what we all we need to do here is acknowledge where the problem 
is coming from.
    There's a massive elephant in this room that nobody seems 
to want to talk about. The elephant in the room is the inherent 
conflict of interest problem for the State Department in these 
abduction cases.
    Their primary mandate, as they see it, is to maintain good 
relations with strategic allies such as Japan--a very good 
cause--and this is in direct conflict with the interests of our 
children and the children of Japan whose advocacy would require 
the State Department to publicly shame and reprimand Japan for 
its complicity in these kidnappings and for its truly barbaric 
sole parental rights regime--a regime that violates some of the 
most basic human rights of parents and children alike.
    But as State Department officials have told us, the 
military bases in Japan and the economic interests that we have 
do not allow them to ``demand'' compliance from Japan. The 
strategic relationship is too important--too important to 
advocate for our children, too important even when an act of 
Congress--the Goldman Act in this case--requires them to 
publicly shame Japan in a report by simply speaking the truth.
    They simply cannot bring themselves to do their job and 
tell the truth because their job requires them to navigate 
through a huge untenable conflict of interest--to maintain good 
relations with Japan while at the same time publicly calling 
them out for their horrendous human rights violations in this 
context.
    Honorable Members of Congress, we parents implore you to 
require the State Department to do its job, to tell the truth, 
and then apply the tools that it has been given in the Goldman 
Act based on that truth.
    We implore Congress to require the State Department to redo 
this report and be honest. Help the reformers in Japan by 
holding Japan accountable and declare Japan to be noncompliant.
    I want to conclude by offering a solution. We have seen 
this situation before with the State Department and its conduct 
surrounding international trade.
    The State Department was found to drag its feet, lie, and 
obfuscate in the interests of smooth relations with the 
Department's perceived client states in trade.
    Until the early 1960s, the Department of State was 
responsible for conducting U.S. trade in investment diplomacy 
and have reporting responsibilities just as State does now with 
child abduction.
    Indeed, the Kennedy administration, in its wisdom, found 
that the State Department had an inherent conflict of interest 
in dealing strongly with our trading partners who were not 
dealing fairly with us.
    So President Kennedy created a new office, the Office of 
the U.S. Trade Representative. Even that was not enough because 
the trade deficit continued to grow and throughout the 1980s 
U.S. companies became quite perturbed with the State 
Department's perceived interference in trying to rein in huge 
deficits with an important strategic partner.
    Remember the 80s? I do. Remember who the problematic 
country was? That is right, Japan. So what did Congress do 
about it?
    The USTR's authority was further enhanced under the Omnibus 
Trade and Competitiveness Act of 1988. Section 1601 of the 1988 
legislation codified and expanded the USTR's responsibilities. 
In so doing, the legislation reinforced the congressional-
executive partnership for the conduct of U.S. trade policy.
    The legislation required that the USTR be the senior 
representative on any body that the President establishes to 
advise him on overall economic policies in which international 
trade matters predominate and the USTR should be included in 
all economic summits and other international meetings in which 
international trade is a major topic.
    It is my firm opinion that this is exactly what Congress 
will need to do if we expect for the executive branch to 
develop the capacity to aggressively advocate for our children 
without the burden of a conflict of interest.
    I have learned in my many years of international business 
that a good cop negotiation strategy only works if there is a 
bad cop in the room. Asking State to be simultaneously the good 
cop and the bad cop simply will not work.
    Like the trade czar--the USTR--what we really need is a 
child abduction czar outside the purview of the State 
Department, accountable directly to Congress and the 
President--a U.S. children's representative office as the 
senior representative on any body that the President 
establishes to advise him on child abduction policies and 
international child rights matters.
    This children's rights czar should be included in all 
summits and other international meetings in which child 
abduction or child rights is a major topic and should have its 
own agenda that is not subject to the desires of any specific 
country desk at State.
    This office would be staffed not by people who pass the 
Foreign Service exam with degrees in international relations 
and area studies but, rather, people with degrees and 
experience in child welfare, child psychology, and family law. 
They would be true advocates for abducted and abused children 
and be measured by Congress and the President on their progress 
in protecting our children internationally.
    Mr. Chairman, I know we cannot get to such legislation and 
get it enacted overnight. The USTR took decades to develop to 
its current state.
    But that needs to be the strategic direction. Our children 
have to be as important to us as international trade 
considerations. Our kids' human rights have to supersede our 
other issues with foreign countries in the context of bilateral 
relations.
    They should, but at present they don't, and this is causing 
an enormous amount of suffering, needless suffering, by the 
parents sitting before you here, the thousands of parents who 
are not in attendance today, and the thousands of abducted 
American citizen children throughout the world.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Savoie follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                              ----------                              

    Mr. Smith. Dr. Savoie, thank you so very much for your 
testimony and for your tenacity in speaking up not just for 
yourself and your family but for all of the families.
    Ms. Barbirou, you may proceed.

STATEMENT OF MS. EDEANNA BARBIROU (MOTHER OF ABDUCTED CHILD TO 
                            TUNISIA)

    Ms. Barbirou. For the record my testimony will be 
paraphrased and I would request that it be submitted for the 
record.
    Mr. Smith. Okay. Without objection, yours and all the other 
statements and any additional materials you would like to have 
attached to your testimony will be made a part of the record.
    Ms. Barbirou. Thank you.
    Chairman Smith, thank you for committing your time today to 
address this issue of international parental child abduction 
and the implementation of the Goldman Act, henceforth referred 
to as ICAPRA.
    I am inspired by your continued concern for the pursuit of 
justice in the cases of our illegally abducted children. 
Without your constant vigilance over ICAPRA and its 
implementation by the Department of State, I and the thousands 
of others who have been victimized by IPCA would be all alone.
    Many of us have spent years begging to be heard, to be 
properly represented for the sake of our children by our 
Government. Thank you for answering our plea.
    In my family's case my children, Eslam and Zainab, were 
illegally abducted to Tunisia by their father, a Tunisian 
native, in November 2011. At the time, I had full custody of 
both children and retained a judicial order preventing either 
of us from traveling outside of the United States with either 
child.
    Because there are no formal legal agreements between the 
U.S. and Tunisia, I relocated to Tunis in January 2012 in order 
to pursue the application of my custody rights through their 
courts.
    In October 2012, I obtained a Tunisian primary court ruling 
upholding my rights of custody of both Eslam and Zainab in the 
United States. That ruling was appealed and I later obtained 
concurring judgments through both the Tunisian appellate and 
Supreme Court upholding my rights of custody of both children, 
declaring that their best interest would be served by their 
return to the United States, their home of residence.
    Despite all of these judicial decrees, the Tunisian 
Government has refused to implement its laws and these rulings 
remain unenforced to this day.
    Prior to the passing of ICAPRA, State's Office of 
Children's Issues, or OCI, the U.S. Consulate in Tunisia, the 
U.S. Ambassador to Tunisia and Ambassador Susan Jacobs had been 
very active in our case.
    This support, coupled with the avid representation I have 
received from Senators Cardin and Mikulski and the FBI through 
its legal attache in Tunis, assured me that with the passing of 
ICAPRA our case would be immediately resolved and our family 
would be reunited here on U.S. soil.
    Unfortunately, that is not the case. Despite having every 
available tool at its disposal to secure the return of my baby, 
he remains illegally retained with his father in Tunisia.
    I firmly believe that this is due to intentional resistance 
on behalf of State to ICAPRA and the likely unpopular 
diplomatic and political consequences of its full enforcement.
    I defer to the compliance report to support these claims. I 
am thankful that in its testimony today State has provided an 
account of how many children have been represented by the 
report.
    While the report makes consistent references to cases 
throughout, there is not one instance where an abducted child 
is counted. My question is simple.
    Why? Why wasn't a single child accounted for in 2014 and 
how did the Central Authority for the United States lose sight 
of the significance for every searching parent that it 
represents to have his or her child counted?
    After scrutinizing the 42-page report as submitted to 
Congress, I have no clearer understanding of how many cases of 
IPCA occur in the United States, how many children are 
affected, and no means of assessing whether the numbers of 
abductions have increased, decreased or remain the same.
    Simply providing evasive accounting of cases without 
identifying a total number of children affected does not bring 
us any closer to an understanding of the breadth of this crime 
on the American public.
    The compliance report is riddled with gross numerical 
manipulations, as exemplified by a cursory review of the 
Tunisia section of Table 2 where neither the unresolved case of 
Eslam nor that of Zainab, who returned home with me in August 
2014, appear to be represented.
    Aside from this, the report also explicates State's 
disinterest in pursuing the stronger remedies required by 
ICAPRA. It also clearly articulates its policy of increasing 
the number of signatories to the Convention as its major goal.
    This policy of pushing the Convention as a remedy has not 
been shown to effect a resolution in any existing case and I 
believe the devastating repercussions for our families with 
abductions to Japan provide strong evidence of that.
    To be clear, ICAPRA as it is written is a fair and powerful 
law that includes strong remedies which, if applied, will 
result in the return of our illegally-retained abducted 
children abroad.
    It is my firm belief that had State applied any of remedies 
four through seven as provided for in Section 202(d) if ICAPRA, 
Eslam Chebbi would be home with the family today. The policy 
and directive of OCI to promote accession to the Convention and 
to avoid politically and diplomatically contentious remedies 
for the return of our innocent American citizen speaks volumes.
    At this time, my baby is a vulnerable United States citizen 
who is being denied his constitutional rights under Tunisian 
law, international law, and U.S. law, and despite the extensive 
efforts of the various representatives of State, my United 
States Senators and Representative, the FBI and legal counsel, 
the Tunisian Government continues to eschew our case while 
opening its pockets to the ever-increasing financial allotments 
that State provides to the Republic annually.
    Clearly, if Eslam Chebbi counts and if every American child 
illegally retained abroad counts, then State must redouble its 
efforts to account for every abducted child in its report and 
apply every actionable remedy provided for in ICAPRA to ensure 
their return.
    As you well know, there is so much more that can be said 
about this very important topic. But given time constraints, I 
must conclude my testimony here. So I thank you again for the 
honor of testifying.
    [The prepared statement of Ms. Barbirou follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony.
    We will try to have an additional hearing in July because 
there is a 90-day window where the application of the 
sanctions.
    Hopefully there will be significant and robust sanctions 
against those 22 countries and I would hope that they will 
revisit Japan, as I mentioned to our two previous panelists, 
because Japan absolutely has to be on the list. It is a glaring 
omission.
    I would like to yield, before going to Mr. Parmar, to Eliot 
Engel, the ranking member of the full committee.
    Mr. Engel. Thank you, Mr. Chairman. I want to just make a 
brief statement and then I think we are being called for votes.
    First of all, I want to thank you for scheduling today's 
hearing and I want to thank you for your tireless advocacy. 
Through all the years we have both served in Congress together, 
I know of no one who fights harder than you for causes in which 
you believe and are effective in fighting for those causes.
    So I think that everyone here should understand how much of 
this is driven by you. You drive the agenda and you make your 
mark and you do good. So I just want to say that.
    I am here because I want to show my support on this issue, 
which affects more Americans than we know. In my district, a 
good constituent here, we have the case of Samina Rahman, who 
is the parent of an internationally abducted American child.
    Mr. Chairman, I know that you have been a champion of 
returning abducted American children back to their home and I 
join you in calling for reforms to the system. There are few 
crimes that are more heart-wrenching than child abduction.
    As a parent of three, I can't even imagine Samina's anguish 
and the pain felt by the other parents who have had a child 
abducted by their partner and taken to another country. These 
left-behind parents have little leverage to have their children 
returned home.
    They are often at the mercy of foreign courts with 
different cultural conceptions of custody and arbitrary 
determinations for what constitutes abduction and what is or is 
not in the child's best interest. Usually, it is not in the 
child's best interest even when they say it is.
    The most effective tool the United States has to help 
return abducted children is the 1980 Hague Convention on the 
Civil Aspects of International Child Abduction.
    This treaty creates a global standard and requires 
signatories to return abducted children to the country of the 
child's habitual residence for a custody hearing.
    Unfortunately, and very regrettably, there are significant 
gaps in the Hague treaty framework and we need to fill those 
gaps. I think that is something positive that we can do.
    International parental child abduction is an under-reported 
incident, an often overlooked crime which dramatically and 
traumatically impacts the lives of the children and parents 
involved.
    We need to send a message to the world that we take Hague 
compliance and returning abducted children back to the United 
States seriously.
    I want to thank my constituent for being here and for her 
courage and we are there with you. Keep in mind you are not 
alone and we are going to do everything we can to help.
    And, again, I would like to end by, again, thanking my 
colleague, Mr. Smith for his tireless effort on this important 
issue. Thank you very much.
    Mr. Smith. Mr. Engel, thank you very much for your 
excellent statement, your leadership, and we do work--and I 
think the American people need to know--more and more we work 
across the aisle and it is always a privilege to work with 
Eliot Engel, the gentleman from New York, the ranking Democrat 
on the full committee. Thank you so much for being here.
    I would like to ask Mr. Parmar, who is from Manalapan, I 
understand.
    The abduction happened in Edison. I thank you for being 
here and look forward to your testimony.

 STATEMENT OF MR. RAVINDRA PARMAR (FATHER OF ABDUCTED CHILD TO 
                             INDIA)

    Mr. Parmar. Thank you, Chairman Smith. Good afternoon. I am 
honored for the privilege to provide my testimony before you 
and I commend you for holding this important hearing.
    I am here today because I am inspired by a British-educated 
barrister traveling on a train to Pretoria in 1893 with a paid 
ticket who was thrown off a train for sitting in first class 
compartment because of the color of his skin.
    The sense of injustice and outrage within him inspired a 
struggle for civil rights in South Africa, which he later 
transformed into a fight for national independence from a 
colonial power.
    That resulted in an independent India. I am referring to 
Mohandas Karamchand Gandhi, or Mahatma Gandhi.
    I am not comparing myself to Gandhiji, but I am compelled 
to stand up and fight for the cause that transcends cultures 
and nations. I am here today because my little boy, whom I love 
dearly, isn't with me and he has been robbed of his father's 
love and presence for over 3 years.
    Reyansh is another victim of a crime that was not 
perpetrated by a stranger but by his own parent. It was a 
calculated and malicious act committed to inflict maximum pain 
on me without any regard for Reyansh's well being or rights.
    I am also here today because of Abdallah's mother, Samina 
Rahman, Nikhita's father, Vikram Jagtiani, Indira's mother, 
Tova Sengupta, Albert and Alfred's mother, Bindu Philips and 
dozens of parents whose children have been abducted to India 
are hoping that I have the courage to give an honest and 
accurate assessment of how our lives have been devastated not 
only by the abducting parents but by civilized nation states 
who have shown a blind eye to the immense human suffering that 
we have experienced for years.
    Parental child abduction is about our children. These are 
precious human lives and they matter to me, to Edeanna, to 
Chris, Jeffrey, Avinash, Bindu, Vikram, Samina, Arvin, Tova, 
Manu, Nihar, George, Eric, Marla, Carolyn, Devon, David, 
Noelle, Alyssa, Annie, Laura, and Vibhor and the list goes on.
    Our governments have failed to rise above their economic, 
security, cultural, and other geopolitical interests to solve 
what is a solvable problem. If one of the objectives of this 
hearing is to scrutinize the records of Japan, India, Tunisia, 
and other countries with longstanding child abductions, then I 
humbly request, Chairman Smith, that we add one more name and 
that is the United States.
    Why the U.S., you will ask. Simply put, cases like mine 
have been lingering for years without any sign of progress, and 
you don't need to know the inner workings of our Government to 
learn why that is the case.
    The Department of State's Web site, which is included in 
Exhibit C of my testimony, lists parental child abduction at 
the bottom of the section under Youth and Education. Items 
listed above it include Office of Overseas Schools, Exchange 
Visitor programs, Fulbright program, Youth Exchange programs, 
Student Career.
    How much confidence does that give victims of parental 
child abduction when on one hand the Office of Children's 
Issues publicly state that they care about other children and 
are doing everything they can to bring children home yet the 
facts show a different picture?
    How long can parents like me have to wait even for a 
glimmer of hope? Let us look at elsewhere within our Government 
where the Department of Justice, whose mission is to enforce 
law and defend the interests of the United States according to 
the law, to ensure public safety against threats foreign and 
domestic, to provide Federal leadership in preventing and 
controlling crime, to seek just punishment for those guilty of 
unlawful behavior and to ensure fair and impartial 
administration of justice for all Americans.
    Has the Department of Justice lived up to its mission? How 
many parental child abduction cases have they prosecuted in the 
last decade? How many cases have they a closed without children 
returning? How many offenders have they successfully 
prosecuted?
    The answers are hard to find. So here I am today presenting 
a victim's report card to rate our experience in terms of how a 
nation has acted to protect our children's rights and 
cooperated in their return using a rating scale that my son 
would understand--really bad, not good, okay, good, and 
awesome. I would rate our experience in the United States as 
not good and in India, unfortunately, as really bad.
    It doesn't give me any joy to say this, but after several 
decades of collective hardships faced by left-behind parents 
and our children, the dial on international parental child 
abduction just hasn't moved.
    From a parent's point of view, where is the leadership? 
Where is the urgency? Left-behind parents have been kicked 
around like a soccer ball from one courtroom to the next, from 
one government agency to another, from one elected 
representative's office to another and by chance, if their 
stars align, the left-behind parent like David Goldman, Noelle 
Hunter or Alyssa Zagaris may get the support and justice they 
deserve.
    Otherwise, for most left-behind parents we hit the repeat 
button and do this all over again. Avinash Kulkarni's son, 
Soumitra, was abducted in 1990 from California when his son was 
only 6 months old. The abducting parent did everything she 
could to alienate Soumitra from his father.
    Today, Avinash has no contact with his son and he spent his 
entire life savings, sacrificed his career to fight a legal 
battle to seek justice which continues to elude him. This must 
change. The time to act was yesterday.
    Parents all over the country and around the world are 
outraged by the ground reality and the mediocre response--at 
best--to address the real human tragedy.
    For too long the voices of children have been left behind. 
Voices of children and left-behind parents have been ignored or 
silenced. If I don't stand up today and speak about injustice, 
Reyansh will have one less role model to look up to.
    While I support a strong and growing strategic partnership 
between our country and India based on the foundation of shared 
values, including family values, it must not come at the 
expense of American children and families. As we enhance 
engagement with India, more and more people will establish 
social and other bonds.
    Many of these relationships will lead to cross cultural and 
cross national marriages. For all practical purposes, if the 
United States and India don't establish a strong framework 
including considering alternatives like bilateral agreements or 
Executive orders on the issue of parental child abduction, this 
will lead to an exponential growth in abduction cases and will 
lead to a human rights disaster that will jeopardize our 
children's future.
    Policymakers in India need to think beyond its borders and 
modernize its laws on crimes against children, family and 
custody matters to reflect the new global realities and align 
them to international standards.
    I respectfully urge all Members of Congress, especially 
those in the India caucus, to use this opportunity to bridge 
the divide and create a foundation for human welfare and 
prosperity.
    It is time to take individual and collective ownership and 
bring accountability wherever it is lacking. We are all aware 
of India's positive contributions to the world and we know as a 
rising power it has the aspirations to lead the world.
    Upholding core values like rule of law, inclusive growth, 
and protections of human rights without taking stock of its own 
ground realities the path forward will not lead to achieving 
those goals.
    I wish I could say that the only challenge that we face in 
India is systemic delays in the judiciary and that despite the 
delays abducted American children and left-behind parents 
consistently get their justice in India.
    Unfortunately, neither statement is true. While I have seen 
some recent progress as instances of divorce and custody 
battles have increased within India, the fact of the matter is 
that those decisions are too few and far between.
    Indian courts are using outdated laws or, worse, no laws in 
the case of parental child abduction, to address the challenges 
of a modern globalized world.
    In a recent case in the Supreme Court of India, the court 
ordered the return of two British citizen children abducted 
from the UK predicated on the left-behind parent meeting a 
whole slew of criteria.
    It was plainly clear that even when the abducted children 
are in extremely rare instances returned to their home 
countries, it is often with significant preconditions on the 
left-behind parent, which in effect penalizes the victims and 
rewards the abductor.
    Based on direct experiences and the ground realities in 
India, even in 2015 left-behind parents are completely stacked 
up--sorry. The ground realities in India even in 2015 are 
completely stacked up against the left-behind parents.
    We hope leaders in India will pay heed to the following 
observations not because America is demanding or asking for any 
favors but her own citizens deserve better.
    The lack of policy and law recognizing parental child 
abduction as a crime both civil and penal has significant 
ramifications for not only Indian citizens but those around the 
world who have some sort of association with India including 
cross cultural ties, marriages with Indian citizens, or people 
of Indian origin.
    India's policy decision that Indian courts are competent to 
decide on individual child abduction cases based on existing 
law in the absence of acceding to Hague and/or Indian laws 
addressing parental child abduction is leading to confusion, 
inconsistent decision-making and wasting precious legal 
resources for a country that has over 31 million pending cases 
as of September 2014.
    The inconsistent, at times incorrect, application of 
criteria for domicile with an Indian divorce law such as the 
Hindu Marriage Act on foreign citizens, permanent residents of 
other countries, and expatriates is resulting in wrongful 
assertion of jurisdiction by Indian courts raising serious 
questions of extra-territorial application of Indian law and 
impinging U.S. Constitutional rights and protections guaranteed 
to each of us living in the U.S.
    Thus, a cocktail of issues combined with a lack of joint 
custody provisions, gender-biased domestic violence laws, 
nonbailable offenses like the Indian Penal Code 498(a), which 
is the anti-dowry law, are routinely involved by abductors, 
give abundant incentives for parents of Indian origin across 
the United States and the world for India to become their 
preferred destination for child abductions.
    Mr. Smith. Mr. Parmar, if you just suspend briefly.
    Mr. Parmar. Sure.
    Mr. Smith. We have two votes on the floor and I will be 
back and hopefully with some other members within about 10 
minutes. If you could pick up right where you are now and then 
we will go to Mr. Findlay, and I apologize but we will stand in 
very brief recess, then resume.
    Mr. Parmar. Sure.
    [Recess.]
    Mr. Smith. The subcommittee will resume its hearing and, 
Mr. Parmar, sorry for cutting you off mid-sentence but I had to 
make the floor vote. So thank you.
    Mr. Parmar. I will probably take no more than 2 more 
minutes. The issue of domicile and jurisdiction pose the 
greatest risks for American children and families who have made 
a conscious decision to permanently settle in the United States 
and yet find themselves being dragged into Indian courts due to 
issues described about.
    In my own case, we are Hindu-Americans permanently residing 
in the United States and Reyansh was born in New Jersey. My ex-
wife and I both are U.S. citizens. I have lived in the country 
for 21 years. Reyansh lived here until he was wrongfully 
removed from New Jersey and retained in India by his mother.
    Her presence in India is due to her absconding from New 
Jersey after multiple violations of U.S. State and Federal law. 
It is evident to any reasonable person that neither I nor my 
ex-wife were domiciled in India, thus the Hindu Marriage Act 
would not apply to us.
    Yet, three different levels of courts in India reached the 
complete opposite decision. I urge this subcommittee to take 
special note of the broad and subjective interpretation and 
application of family law which is being applied in an 
extraterritorial manner by Indian courts to foreign nationals 
and nonresidents as a cause of concern.
    Our rights as American citizens and protection under the 
Constitution of the United States are being impinged upon by 
Indian courts at all levels. The Hague Convention has been in 
place for 30 years.
    How many more hearings will it take before we can see 
American children being returned from countries like Brazil, 
India, and Japan who have either failed to recognize parental 
child abduction as a crime or disregarded international law and 
their own treaty obligations?
    We are not demanding any special favors from our 
Government, but when parents are being left behind twice, once 
by their abductor and then by our own Government, to fight a 
state machinery in another country without direct and sustained 
U.S. Government intervention, it is no coincidence that for 
every Sean Goldman there are hundreds of Reyansh Parmars.
    The seeming lack of strong will, courage and urgency across 
different parts of our Government to address this human tragedy 
is baffling.
    It is troubling to see that the same state actors continue 
to repeat their bad behavior without any consequence because it 
appears we are too concerned about our economic security and 
other interests, which begs the questions who will be the 
beneficiaries if our children don't return.
    I have a few recommendations that I have submitted in 
Exhibits E and F and I would like this subcommittee to kindly 
consider those. I will not go into the details right now.
    But in conclusion, on a positive note, earlier this month, 
the U.S. Attorney for the Northern District of Illinois 
indicted a Skokie, Illinois, father for international parental 
kidnapping of three children traveling with him to Turkey en 
route to Pakistan without their mother's consent, permission, 
or knowledge.
    He left on May 2nd and was arrested on May 6th at O'Hare 
Airport on arrival as a result of swift and coordinated actions 
on the part of the Turkish Airlines and law-enforcement 
agencies. All three children are now safely in the United 
States.
    We urge our Government to deliver the same kind of justice 
for our children who are victims of this terrible crime 
including Albert, Alfred, Archit, Siva Kumar, Reyansh, Nikhita, 
Abdallah, Ishaan, Indira, Trisha, Pranavan, and dozens if not 
hundreds of other American children currently in India.
    I will conclude with what David Goldman stated in his 
testimony before this subcommittee in May 2013.

        ``These cases typically drag on for months, which soon 
        turn into years as the abductor creates a home field 
        advantage with endless appeals and delay tactics in 
        their home country's legal system. This is the norm, 
        not the exception. These cases are abduction cases and 
        laws have been broken!!! Let's remember that these 
        cases are not custody disputes.''

    Let us also be clear what we left-behind families are 
asking for. Some people mistakenly believe we are asking for 
our Government to intervene in custody disputes. We are not.
    All we are asking is that when our children are kidnapped 
to thwart a proper resolution of custody, law governing their 
return to our country is upheld.
    When it comes to international law that deals with children 
abducted from the United States and other lands there is no 
rule of law. In the broken lives and broken spirits of left-
behind parents across America, whom we represent here today, 
stand as a living rebuke to that failure to enforce the rule of 
law.

          ``The plain fact is that nations who refuse to return 
        America's children pay no price for defying the law, 
        and unless we arm the State Department with the tools 
        they need to do their job and unless nations who break 
        the law flagrantly and repeatedly suffer real 
        consequences, nothing will change . . . nothing will 
        change.''

    After over 2 years, those words still hold true. The 
Department of State now has the tools in the Goldman Act to use 
them urgently and effectively to bring our children back.
    We are asking for action. We are asking that you bring our 
kids home.
    Thank you, Chairman Smith.
    [The prepared statement of Mr. Parmar follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  ----------                              

    Mr. Smith. Mr. Parmar, thank you so very much for your 
testimony and for your very extensive list of recommendations 
including for aiders and abettors of child abduction.
    I think, you know, all of your testimonies are brilliant 
and I thank you for those very specific recommendations.
    Mr. Findlay.

 STATEMENT OF MR. PRESTON FINDLAY, COUNSEL, MISSING CHILDREN'S 
  DIVISION, NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN

    Mr. Findlay. Thank you, Chairman Smith and distinguished 
members of the subcommittee. I am pleased to be here this 
afternoon on behalf of the National Center for Missing and 
Exploited Children.
    First, I would like to take a moment to thank you 
personally, Mr. Chairman, and other members of the committee 
for your tireless efforts on behalf of the families impacted by 
the terrible crime of international child abduction.
    The enactment of the Sean and David Goldman Act provided 
families and their supporters with additional tools to bring 
their children home and I appreciate your work to help ensure 
it is implemented in the manner that Congress intended.
    As you are aware, and it is elaborated further in my 
written testimony, for years NCMEC has focused on the problem 
of international child abduction, working with the State 
Department and law enforcement agencies to assist the impacted 
parents and families.
    Today, in our distinct role as a nonprofit nongovernmental 
organization, we continue to work with families, as we have 
with each of the parents here today, to apply our experience, 
networks and resources to help them locate and recover their 
children.
    You have heard today clearly that significant challenges 
remain. There are still several countries, including Japan, 
India, Tunisia, among others, in which systemic problems lead 
to lengthy delays and a lack of any real progress toward the 
recovery of U.S. children.
    For just one example, India currently represents the 
individual non-Hague country with the highest number of active 
abduction cases noted in NCMEC's own statistics and those 
statistics illustrate the exact same depressing reality facing 
the individual parents who have shared their powerful stories 
today.
    NCMEC is currently assisting families in 53 total child 
abduction cases to India right now and of those open cases 51, 
almost the entire total, have been active for longer than 1 
year.
    In nearly half of those cases to India the parent has been 
seeking the return of their child for more than 5 years. When 
that much time has passed since a parent was separated from 
their child, phrases like delay, or unresolved, or 
noncompliance are not adequate to describe that situation. It 
is much more appropriate to describe it as heartbreaking.
    The statistics and outcomes that NCMEC has submitted to the 
subcommittee, this is not comforting information. But every 
single statement we have heard today illustrates that 
information is important.
    The annual compliance report produced by the State 
Department has long served as the only comprehensive source for 
information to evaluate the performance of foreign nations in 
the most important metric there is--how many and how often are 
abducted U.S. children recovered.
    The compliance report is a tool. It's a tool that NCMEC and 
I personally utilize nearly every day to educate parents and 
professionals.
    For those concerned that an abduction might occur, the 
information it contains is utilized to assess the risk 
associated with the potential international abduction and it is 
also directly relied upon by families, attorneys, courts, law 
enforcement agencies, and others to support their efforts in 
implementing safeguards to ensure a child is not wrongfully 
removed from the United States in the first place.
    The question that is always posed by each of these 
interested parties is, ``What can I expect?'' and the 
compliance report helps to fill in that answer.
    For those families that have already experienced the 
tragedy of an international abduction, the report is a tool 
that NCMEC uses to inform parents of the specific challenges 
that they might be facing and to help them sort through what 
realistic avenues are available for recovering their child.
    Among the most common fundamental questions asked by 
parents in this terrible situation is, ``What can I do?'' and, 
again, the compliance report has often helped in some small 
part of fill in that answer.
    As you have heard, there have been numerous concerns 
identified about the breadth of information contained in the 
State Department's first compliance report issued under the 
requirements of the Goldman Act and whether or not it contains 
sufficient details to continue serving as a useful tool to 
answer the questions of parents, families, and professionals.
    Because NCMEC serves as an information clearinghouse, we 
uniquely appreciate the importance of detailed information when 
a child has been lost.
    Mr. Chairman and other members, I thank you for the chance 
to share with you to help ensure that the most useful and 
complete information is always available and, most importantly, 
to help you implement better solutions.
    My hope and anticipation is that each successive compliance 
report continues to expand on existing knowledge and to serve 
as an even more useful tool than the last report.
    I am happy to answer any questions about NCMEC's own 
programs and our role or to otherwise provide any additional 
information similar to the statistics that I have submitted to 
the subcommittee, anything I can answer to assist you with your 
work.
    I thank each parent for sharing their story and I encourage 
this subcommittee to continue your action and ongoing support 
for these families who seek to bring their children home.
    Thank you.
    [The prepared statement of Mr. Findlay follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Thank you so very much, Mr. Findlay, and I want 
to thank you and the National Center for Missing and Exploited 
Children.
    The Senate finally had the bill on the floor, which I had 
introduced 5 years ago, and it was on the fifth anniversary of 
the introduction of the bill in the House that they finally got 
to vote on it.
    But NCMEC was very involved. Your letters of support and 
endorsement were key because many Members were unaware and 
there were a lot of balls in the air.
    A lot of people are multitasking every day of the week 
here, and it helped to pierce through and say, ``Oh, they are 
for this--what does the bill do?''
    So I want to thank you for that very, very important and 
pivotal support that you provided as well as the work that you 
do on behalf of the families and the families on behalf of 
themselves and for each of those who have testified what you do 
for all the others.
    I mean, I have always been so encouraged and deeply 
impressed and how you never just fight for your own child or 
children. You reach out and you try to help others who are 
similarly hurt by the abduction. So I want to thank you for 
that leadership as well.
    And I hope that the American public--we are very grateful 
that C-SPAN decided--because they get to pick, they have 
editorial judgment as to what hearing merit their coverage--to 
come and hear you as well as the administration speak to this 
issue.
    So we are grateful that they are now able to take that 
message throughout the entire country so that people will know 
the agony that you face and the frustrations that you face as 
well.
    Let me just ask Ms. Barbirou, if you would. I know you do 
support with others who are left behind. Could you tell the 
subcommittee, with some detail, if you would, what it is like 
to wake up, you know, every morning knowing that your child has 
been abducted, not knowing what is happening during the course 
of the day?
    I mean, all of you might want to speak to that. As a father 
of four children and grandfather of four grandchildren, I can't 
even begin to sense how traumatizing that has to be on a daily 
basis, year in and year out.
    You know, Captain Paul Toland is here. His daughter was 
abducted when he was deployed to Yokohama and the mother of his 
child has passed and he can't even get his own child back.
    I mean, as you mentioned, Dr. Savoie, in your testimony, 
his case. If you could speak to the pain that it imposes upon 
you it would be helpful for the subcommittee to get that sense.
    Ms. Barbirou. Thank you, Chairman.
    I don't know that you can verbalize the pain. I can say 
that it is something you have to work through. It is 
devastating every day to, as you said, you can't imagine it. 
But even when it is happening to you, you can't imagine it. It 
is a nightmare that continually goes on, and for me I am 
grateful that I do have my daughter with me and through her I 
am able to witness a piece of my son on a daily basis and that 
is a tremendous blessing that I am firmly aware that so many 
other parents do not have the gift of. And for them, I can say 
for each of us our cases are different.
    Our circumstances differ. But we can feel each other's 
pain. We can feel each other's tragedy. I sat here and spoke 
with Mr. Savoie and I want to cry for him, and it is not 
something that I feel I can personally put into words but just 
ask you to try to imagine.
    And knowing that you can't ever get to the point of 
understanding that depth of devastation realize that it is 
equally difficult to put into words.
    Mr. Smith. Mr. Savoie.
    Mr. Savoie. All I can do is really echo those same 
statements that there really are no words for this kind of 
pain, this kind of trauma. Daily, hourly, every time you see a 
child in a supermarket it reminds you.
    And I am also a stepfather as well and I have stepchildren 
and every time I go to a sporting event or hug my stepchildren 
I am reminded that I am not able to give that same love and 
care to my own biological children and I think all of us feel 
that way.
    We are constantly reminded that we are parents. You don't 
lose that. It is a biological imperative. It is part of our 
fabric, part of the fabric of our beings, and that love is 
being denied.
    And then you start feeling the empathetic pain for the 
child. That is the other thing. As a parent, you don't think 
oh, I am being denied something--I am being stopped, and that 
is true, we are.
    We are victims. We are crime victims. But our children had 
no choice in this matter whatsoever and you empathize with 
them--all the hugs they are missing, all the sporting events 
that they could have with you, the opportunity to speak your 
native language with them.
    All of that gone, and it would be great if at some point we 
could find a justice system that would give us back that time. 
But the truth is Congress cannot give us back that time. The 
U.S. Government cannot give us back that time. God Himself 
cannot give us back time with our children.
    It is gone forever. And so we are left with the pain and 
the suffering and the parents here and many of these parents 
have chosen maybe as a bit of therapy to give back and help 
prevent these things from happening to other people and to work 
together to help return these children in some measure and not 
lose more time.
    Mr. Parmar. Chairman Smith, I 100 percent agree with what 
was just said. I think, again, just reminding that this is a 
human problem. These are lives that we are talking about.
    If we just focus on that and try to decouple it with law 
and diplomacy and everything else, the geopolitical power games 
and everything else, then we can solve it.
    As long as this stuff is out there in terms of technocratic 
stuff, we are really missing the point.
    Mr. Smith. Mr. Findlay, in their testimony just a few 
moments ago Ms. Christensen had said that the new law is 
already encouraging more countries to consider becoming party 
to the Hague Convention or to improve their performance under 
the Convention if they are already a party.
    Are you seeing any similar trends? I mean, is the law 
beginning to make a difference, in your opinion? And again, and 
I would say this as a source of encouragement, if we had the 
report right--and I think on Japan it is egregiously flawed, it 
is a whitewash, it is awful, I can't think of any more words to 
describe it--and as you recall earlier when--from the testimony 
from our friends from the administration I did ask that they go 
back and relook at it and reissue portions where they got it 
wrong.
    There was nothing wrong with the definition of ``unresolved 
abduction case,'' which is why I read the definition right from 
the text to make that clear.
    They have misread that, clearly, somehow, and as I said 
earlier, and before you answer, I am concerned, again, at a 
previous hearing when Ambassador Jacobs said, ``I don't think 
we are going to sanction Japan, or threaten them with 
sanctions, because I think that would be detrimental to our 
bilateral relationship.''
    A bilateral relationship, like any friendship, needs to be 
based on trust, it needs to be based on honesty, clarity and 
not putting uncomfortable truths under the table like this 
egregious wound that it does to your children as well as to 
left-behind parents of parental child abductions.
    So shame on us if we do not say, looking them straight in 
the eye, this has to improve and this is a very serious issue 
between our two countries because we care about the kids--the 
abducted children--and we care about the left-behind parents.
    So Mr. Findlay.
    Mr. Findlay. Thank you, Chairman Smith.
    I think, as you have stated and I have reiterated several 
times in my testimony I see the Sean and David Goldman Act as a 
tool--a tool of recovery but also a tool potentially of 
prevention and some of the most promising differences that I 
have seen in the time since it was enacted have been steps--
slow steps toward improving our Nation's response to preventing 
an abduction from occurring in the first place.
    I have indicated that the information the National Center 
submitted in our written statement regarding the active cases 
to Japan where 50 out of 54 active cases have been ongoing for 
longer than a year, 20 out of 22 active cases to Brazil have 
been going on longer than a year, 51 out of 53 to India have 
been going on longer than a year and all six of the cases we 
are currently working on in the country of Tunisia have been 
active for longer than 1 year.
    That is not comforting information. We are happy and 
pleased with the opportunity to present that kind of 
information and to give that perspective and that picture to 
other parents and to the committee as you try and get a real 
perspective on whether or not these countries are complying.
    But that remains a depressing picture and that remains a 
depressing picture even in the months since the Goldman Act has 
been passed. So I am hopeful and I am optimistic. But the 
active cases remain the way they are.
    Mr. Smith. This is--as you all know, the next shoe to drop 
will be on the sanctions portion vis-a-vis the 22 nations which 
ought to be 23.
    Japan has to be on that list, and there are very serious 
repercussions which I hope the administration will use as that 
toolbox and we will hopefully hear from Ambassador Jacobs in 
July as to how that is going so that we don't get a designation 
without commensurate sanction so that the countries know that 
we mean business.
    There are two other areas that I have worked on very 
closely--trafficking I mentioned and international religious 
freedom--and very often we have seen a lack of enforcement of 
sanctions when it comes to other human rights abuses.
    So this, hopefully, is an opening for the administration to 
say if you use the toolbox right, if you say we mean business, 
sanctions will be deployed and the quickest way to get those 
lifted is to, obviously, resolve the cases in a way and return 
is the ultimate resolution of the case.
    Let me just ask you, finally, to what extent any of you 
might want to speak to this do you believe that corruption 
abroad--Mr. Findlay, you might want to speak to this--in terms 
of judicial system, judges, a foreign ministry that might be 
susceptible to corruption.
    We know that corruption is a huge problem in many 
countries. It is a bad problem here in the United States. What 
would you say to that? Has that caused some of this?
    Mr. Findlay. I will try to do my best to answer your 
question--to some extent I would defer on the realities that 
individual parents have faced and the frustrations they have 
faced in their own cases to the parents who have lived it. And 
so I wouldn't presume to speak to each individual situation.
    What I will say, especially as that question relates to the 
purpose of this hearing, is that one of the most useful pieces 
of information contained in previous compliance reports has 
been detailed descriptions of the performance problems in 
countries that are a concern for noncompliance.
    When previous reports listed concerns, for instance, about 
judicial performance there was significant detail provided for 
a country that has not been spoken about today but a country 
such as Costa Rica where there were in past compliance reports 
detailed descriptions of the problems that the United States 
noticed in the application of the treaty's principles in their 
courts when considering Hague Convention cases.
    They remain noted, I believe, in the current report as do 
numerous other countries. However, to some extent some of the 
detail and the level of depth on what exactly led to those 
designations does not exist in the current report and as I look 
at this as a useful tool to educate and to make everyone aware 
of not just existing problems but how to prevent this it is 
important to make sure that the level of depth and the level of 
detail remains and----
    Mr. Smith. Mr. Findlay, I think your point is extremely 
well taken. On Page 30 of the report it has countries 
demonstrating patterns of noncompliance and there is an A, B, 
C, D, E with, you know, foreign central authority performance, 
judicial performance, law enforcement performance and, of 
course, persistent failure of non-Convention countries to work 
with the United States Central Authority to resolve abduction 
cases.
    Then when you turn to the next page where it has the 22 
countries, it has Brazil, ACD; India, E. And you are right, so 
that level of reporting needs to--a point very well taken--
break out so we know and so that they know and so there is real 
transparency about what is the depth of the problem.
    More is more here and we need more. This is--I mean, you 
got to keep referring back to say what is E. It shouldn't be 
that way. So thank you for that. That is a good insight.
    Would any of you like--yes?
    Mr. Savoie. I think in Japan we have a--I would not 
describe it actually as corruption. I would just say that the 
fix is in. The law just doesn't allow for this to happen and 
the courts aren't changing it.
    There is a problem with following rule of law even within 
Japan itself.
    Mr. Smith. But I think what you pointed out with even the 
Chief Justice of the Supreme Court in Japan, we need to become 
a tailwind behind the reformers in Japan so if we put a zero 
for unresolved cases who are we really helping there? One, it 
is inaccurate but, secondly, it is not helping the reformers.
    Mr. Savoie. And we are taking the wind out of their sails, 
actually, and when the Chief Justice is saying that he was, you 
know, speaking to the family court judges in his country and 
saying look, you have got to get with it and actually follow 
the laws.
    There are some laws that could be used, on the books, in 
Japan and lawmakers have put some things in there, like Article 
766 has been reformed somewhat to help visitation. The parental 
rights thing hasn't changed.
    But the courts themselves are not cooperating and when you 
have this kind of intransigency and this kind of cultural 
recalcitrance it is not technically corruption but it is an 
official problem that we have.
    And by calling out Japan with its problems for what it is 
and saying to our friend, our compatriots over there, that 
look, you have a problem with your system--it is violating 
human rights, let us not do that--I don't think that we are 
hurting Japan.
    We are helping Japan and we are helping Japanese children 
at the same time who deserve those same human rights.
    Ms. Barbirou. Thank you for the question, and I think I 
would echo that statement that I am not sure that it would be 
corruption that is the descriptive word I would use. But there 
is certainly an issue in Tunisia with a rule of law.
    When you have a Tunisian President visiting with U.S. 
Senators and declaring to them that there is no final judgment 
in an abduction case where the Supreme Court of Tunisia has 
made a ruling declaring that Eslam and Zainab's home of 
residence is the United States and their best interest is 
served there, to repeatedly through various members of their 
administration up to the newly-elected President to respond to 
any request by our Government officials to say that there isn't 
a final judgment it is absurd.
    What is your rule of law? You have just instilled a new 
constitution that directly upholds your Supreme Court and its 
rulings and then you turn around in the face of those and say 
well, we don't have a ruling--we don't have a final judgment.
    Well, if your Supreme Court is not the final judgement then 
what is? And I have to say, though, personally I do applaud the 
Tunisian judiciary for following international law and 
upholding its legal obligations in the face of what is very 
obviously an interest of society to protect its citizen because 
they see my children as Tunisians and they do not see them as 
individuals.
    They do not see them as children who deserve the familyhood 
of both a mother and a father. They see them as symbols of 
their national symbols and my children are Tunisian. They are 
American as well. Their home of residence is the United States.
    The Tunisian courts have ruled. The American courts have 
ruled. And it is simply time that those judgments be enforced 
and I don't know if you call that corruption. I certainly call 
it a problem.
    Mr. Smith. Mr. Parmar.
    Mr. Parmar. Mr. Chairman, I think there is a lot of 
commonalities and it is hard for us to define whether we face 
corruption or not.
    But, you know, for example, laws that have no clear 
guidelines so that from one judge to the next these--under the 
same set of circumstances you will get different rulings, the 
fact that even after, for example, in India there has been very 
progressive thought in the law commission.
    In 2006, one of the reports said that India should accede 
to Hague and make changes to their sole custody laws so that 
joint custody is allowed.
    Fortunately, on the latter, there has been some movement 
within the Indian Parliament. They have placed a rule change. 
It is still probably going to take some years to implement. But 
I think there are changes going on.
    I think the main challenge that we face is both cultural 
and attitude approach to that, I think. So it might not be in 
an overt decision to harm somebody but it is the ignorance in 
the issue that is probably what is hurting us.
    Mr. Smith. If you have anything else you would like to say 
I would like to give you all the last word or we will just 
conclude.
    But the Trafficking Victims Protection Act, which I wrote 
in the year 2000, requires the TIP Report, this mammoth study, 
country-by-country, Mr. Findlay, as you know so well, which 
breaks out prevention, prosecution, and protection--the three 
P's of trying to combat sex and labor trafficking. Every 
country has a monologue.
    It has a box of recommendations. And then there is a tier 
system--a 1, 2, 3--and watch list, and if you are a Tier 3 
country you are an egregious violator in the issue of human 
trafficking and you get sanctioned.
    Now, this didn't start out as this thick book but it 
quickly became that, data calls going out to our Embassies. In 
the Goldman Act we make very clear that we want somebody in 
every Embassy working this issue where it is their portfolio.
    We want a seriousness of implementation for you and for 
your kids. My hope is that, again, correcting the deficiencies 
currently right now and we will appeal to Secretary Kerry, who 
I think is a very reasonable man, and he will hear that appeal 
and hopefully will take it to heart and make sure that on Japan 
and on India, where there are no unresolved cases--according to 
this we have an unresolved case too from both of those 
countries sitting right here--we will look to fix it and to get 
it right for accuracy.
    And again, for the courts--and Mr. Findlay, you might want 
to speak to this--how important it is for current cases before 
judges that this report be correct so that they make informed 
decisions about the vulnerabilities of someone perhaps going 
abroad with their child.
    Mr. Findlay. I am happy to speak to that, Mr. Chairman.
    Just yesterday, Wednesday of this week, I was on the phone 
and speaking to a family court in the State of Washington and 
to the litigants and the attorneys involved in that case and 
describing and answering questions related to the risks of 
abduction to a particular country, not one that has been spoken 
about or represented today.
    But the resource aside from the information--the limited 
information that our center obtains for cases reported only to 
us, but aside from that information that we have firsthand, the 
next and the most important and the most comprehensive source I 
have to point to is the information that comes from the U.S. 
State Department.
    And I value that information and I value the completeness 
of that information, and I do know there are 14 states plus the 
District of Columbia that have adopted uniform child abduction 
prevention laws in their family law systems that encourage or 
require family judges to receive information about whether or 
not a country is a signatory but, more importantly, whether or 
not they are living up to the terms of that treaty and what it 
means to be a signatory to that treaty.
    And that is built right in. That is a factor for that court 
to consider when deciding whether or not to allow visitation, 
allow relocation or otherwise address safeguards for preventing 
an abduction.
    So I know firsthand and our center knows firsthand that 
there are interested parties. There are government entities, 
there are parents, there are attorneys, there are advocates, 
there are agencies who are--who are desperate for this 
information and would love as much information as can be 
provided.
    We do our best to provide what limited information we can 
and we share that with the subcommittee. But that is where I 
will leave it is that information is important. Whether or not 
it is comforting and whether or not it paints a happy picture 
it is still important.
    Mr. Smith. Mr. Savoie.
    Mr. Savoie. I had actually yesterday an individual contact 
me about the report and knew that I was testifying here today 
and he wanted me to mention his case, which is very much on 
point.
    He, prior to Japan signing the Hague, had been granted sole 
custody of his children with supervised visitation because 
there was a threat of an abduction.
    And now that Japan has signed the Hague, the other side is 
now petitioning to have that supervised visitation removed in 
court under the premise that Japan is now a Hague country and 
is compliant and therefore we don't have to worry about this 
anymore.
    And very much to that point if this report is not accurate 
and it says zero, zero, zero, no problem, those children may 
well be abducted.
    They may well be abducted and they may well be abducted 
with the judge's permission because he or she will rely on this 
report saying that zero, there is no problem.
    And, you know, 90 days is actually not enough time to 
correct that for this individual. The other side can present 
this report as evidence with an expert witness into that court 
and put it on the record and now claim that Japan has a 
flawless record in this area when we all know that that is not 
the case.
    So it is very real. It is a very real concern and it has 
created a very real concern for this particular individual in 
Texas right now who is worried that this report may have given 
the other side, who may have nefarious intentions, the ability 
now to legally abduct these kids right out from under us.
    Mr. Smith. That is also the case in the report with Tunisia 
where there are zero unresolved cases. Did you want to speak to 
that?
    Ms. Barbirou. You offered for us to have a closing 
statement so I am going to take you up on that offer, Chairman, 
and thank you for that opportunity.
    I just wanted to reiterate that Ms. Christensen, in her 
testimony, asserted that the mission of OCI is to assist 
children and families involved in IPCA and to prevent its 
occurrence.
    It is a simple mission that does not mention recovery. But 
my assumption is that the assistance to children and families 
involved in IPCA means that they are offering the assistance 
for recovery and yet all that I heard in their testimony and 
all that I see through the compliance report is an interest in 
prevention.
    And I stated in my testimony but want to restate that the 
Convention is a powerful tool but it is not a tool that will 
result in the return of our already abducted children.
    And while I advocate strongly for its use in future cases, 
I wish for it to be made crystal clear in the record that 
ICAPRA, as it is written, is a fair and powerful law that 
includes strong remedies which, if applied, will result in the 
return of our illegally retained abducted children abroad.
    And as a request to this subcommittee, I would ask that in 
the future you ensure that ICAPRA is implemented with the 
spirit in which it was created and that if necessary it be 
updated with an explicit requirement of accountability for the 
total existing cases of IPCA by country including newly 
reported cases and the total number of children involved in 
each case represented in future reports by State to Congress 
because our children count and they must be counted.
    It is so important that State understands that they 
represent individuals and they must count. Thank you.
    Mr. Parmar. I will just end on a couple of items from the 
recommendations that I had. I think a path forward is while we 
are talking about the report, since the 30 years the Hague 
Convention has been in place we haven't had a consolidation of 
data sources.
    So Department of State should expand and enhance the data 
gathering and tracking of abduction cases by leveraging sources 
such as the U.S. family courts, police department records, the 
NCMEC, FBI, and other sources that they can then have a more 
consolidated reporting instead of waiting for the parent to 
report the case.
    One of the other recommendations I would like to highlight 
is in returning the children, especially to the top 
destinations, the Department of State should consider deploying 
a permanent attache at the U.S. Mission who will ensure that 
the pending cases are being worked on in a fair and quick 
manner so that children actually come home.
    That is the bottom line. And the third request I have is 
with you and the rest of Congress is to really take the 
leadership on this and make it a win-win situation for both the 
U.S. and India and really engage with them on this issue just 
like you would engage with them on any other strategic and 
economic issue.
    If you make it important I am sure that it will be 
important for them as well.
    Mr. Savoie. If I could just put on the record one last 
request, just to be able to say that I love my children, Isaac 
and Rebecca, and that I will never stop fighting for the 
ability to be involved in their lives.
    And I look forward to the day that all of us can be 
reunited with them--with our children, and I thank you for all 
your support in trying to make that happen.
    Mr. Smith. Thank you, Dr. Savoie. Thank you all for your 
extraordinarily compelling testimony. I can assure you this 
subcommittee, this Member, will be unceasing in our and my 
efforts.
    As you know, I learned the deficiencies and the gaps in 
what you face on a day to day basis through David Goldman's 
case. Very good welfare and whereabouts but not much when it 
came to policy in trying to effectuate the return of Sean, his 
son.
    And from that ordeal, I learned through him and through his 
son and now through all of you just how agonizing it is and 
that is why we wrote the law and that is why we will be 
tenacious in making sure it is faithfully implemented.
    Again, you are heroes and I thank you for your leadership 
and, Mr. Findlay, thank you for the work that NCMEC does. It is 
irreplaceable.
    The hearing is adjourned.
    [Whereupon, at 5:41 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
